Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Waukegan, Illinois Police Department
GR-50-00-001October 28, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Waukegan, Illinois, Police Department (Waukegan PD).  The Waukegan PD received a total of $1,858,556 to hire 20 entry-level sworn police officers and redeploy 14 full time equivalent officers under the COPS hiring and Making Officer Redeployment Effective grants.  In addition, the grantee received $5,000 under the Troops to COPS program for the training costs of one qualified military veteran hired as a police officer.  The purpose of the grants is to enhance community policing efforts. 

In brief, we determined the Waukegan PD generally used grant funds in accordance with grant requirements and to enhance the Waukegan PD's community policing efforts.  However, we found that: 


The grantee drew down $358,000 in MORE grant funds in July 1998, of which $74,110 remained unexpended as of April 30, 1999.  These funds, held in an interest bearing account by the grantee, earned $1,840 in refundable interest.
	The grantee did not always submit Financial Status Reports and many of those submitted were either late or inaccurate.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.